        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act Energy Efficiency
and Conservation Block Grant
Program – State of Colorado and
County of Boulder, Colorado




OAS-RA-13-16                        March 2013
                                 Department of Energy
                                    Washington, DC 20585

                                        March 28, 2013

MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
               AND RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         American Recovery and Reinvestment Act Energy Efficiency and
                         Conservation Block Grant Program – State of Colorado and County of
                         Boulder, Colorado"

BACKGROUND

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's (Department) Energy Efficiency and Conservation Block Grant (EECBG) Program
received $3.2 billion in funding to help state and local entities develop, implement and manage
energy efficiency and conservation projects. Of the funding provided, more than $2.7 billion
was distributed to over 2,000 entities using a population driven formula, and approximately
$454 million was provided for innovative energy projects through a competitive award process.

The Department awarded a $9.6 million formula grant to the State of Colorado (Colorado) in
September 2009, and a $25 million competitive grant to the County of Boulder, Colorado
(Boulder), in May 2010. These 3-year grants provided funding for activities such as outreach
and advisory services, building retrofits, rebates and loans. As of September 2012, Colorado and
Boulder had spent approximately $8.9 million (93 percent) and $18.5 million (74 percent) of
their grants, respectively. Colorado requested and received an extension of its grant to
September 2013.
Because of the risks inherent in establishing a large, new Recovery Act Program, we initiated
audits to determine whether Colorado and Boulder managed these grants efficiently and
effectively. The results of these audits were consolidated in this report.
CONCLUSIONS AND OBSERVATIONS
We found Colorado and Boulder had not always managed these grants efficiently and
effectively. Specifically:

   •   Colorado paid local agencies about $2 million to develop outreach strategies and action
       plans without ensuring costs were reasonable and activities were performed in a timely
       manner;


                                               1
   •   Boulder and its sub-recipients were at risk of not meeting the grant's goal of improving
       the energy efficiency by 15 percent for about 9,000 homes and businesses by May 2013,
       due to an inability to successfully implement a number of loan programs; and,

   •   About $8,000 of the $279,618 in rebates paid by Boulder that we reviewed were either
       inaccurate or unsupported.

                                  Unsupported Outreach Costs
As of September 2012, Colorado had paid its local agencies about $2 million without ensuring
that costs were allowable and adequately documented, as required by Title 10 CFR 600.220,
Office of Management and Budget Circular A-87, Cost Principles for State, Local and Indian
Tribal Governments, and the terms and conditions of its grant. Colorado awarded nearly $2.3
million in funding for Community Energy Coordinators (CECs) in 19 local agencies to enhance
outreach to under-served rural and mountain communities interested in reducing energy
consumption. Colorado paid those agencies on a predetermined schedule, regardless of costs
incurred. Specifically, monthly requests for payment contained no underlying expenditure
support, including, for example, timesheets and pay stubs. The lack of documentation concerned
us because Colorado had not monitored its local agencies, as required, to ensure costs were
supported and adequate documentation retained. Colorado also had not developed grant closeout
procedures including review of financial documentation.
To their credit, during our audit, Colorado officials developed and issued grant closeout
procedures requiring local agencies to summarize costs and maintain documentation should it be
required for an audit. Officials told us they had closed two CEC agreements in which local
agencies reported costs greater than reimbursements. However, officials had not validated costs
reported by the two sub-recipients. Colorado officials also told us that they requested financial
statements from each CEC before processing final payments. As a result of this effort, Colorado
officials reported that they had reduced final payments to four agencies to ensure that grant
payments did not exceed actual expenses.
Further, although each CEC was required to develop a strategy and action plan in support of
Colorado's energy outreach efforts to under-served rural and mountain communities, we found
that 5 of the 19 local agencies had not provided these deliverables in a timely manner after
receiving advances of 25 percent of awards, or $121,250. Three recipients took over a year to
provide strategies and plans. The other two recipients provided deliverables that were approved
by Colorado more than 2 years after receiving advances totaling $58,750. Colorado officials
stated they paid only a portion of the remaining funds to one of these two recipients because it
could not demonstrate adequate progress was made to meet the intent of the program. The other
recipient received the balance of its funding in the final month of the award as a single payment.
According to Colorado officials, these issues occurred because they did not fully understand
grant requirements. Additionally, we found that Colorado officials had not incorporated
documentation requirements in local agency agreements, and had not held sub-recipients
accountable for timely deliverables. Despite the fact that the terms and conditions of its grant
required Colorado to ensure costs were reasonable and adequately documented, officials told us
that they believed they could base reimbursements on receipt of deliverables, such as



                                                2
development of strategies and action plans and ongoing CEC activities instead of actual
expenditures. Department officials stated that they had communicated Federal requirements to
recipients, including Colorado, through program guidance and workshops.

In the absence of adequate monitoring and documentation, Colorado could not ensure that funds
were spent appropriately and payments to sub-recipients did not exceed actual costs incurred.
Further, lack of timely strategies and action plans increased the risk that program objectives
would not be met. Until such time as Colorado reviews and validates costs incurred, we question
the $2 million incurred as of September 2012, and any unsupported amounts claimed subsequent
to that date.
                          Commercial and Residential Retrofit Goals

We found Boulder and its sub-recipients were at risk of not meeting the grant's objective to
improve, by 15 percent, the energy efficiency of about 9,000 homes and businesses by the end of
the grant in May 2013. As of September 2012, Boulder and its sub-recipients had retrofitted
about 4,200 homes and businesses, which was less than the interim goal of about 6,000. Boulder
had not met its interim goal primarily due to its inability to successfully implement two loan
programs intended to help businesses and residents obtain funding for improvements in energy
efficiency. Specifically:

   •   Boulder had to curtail its Property-Assessed Clean Energy (PACE) loan program,
       originally budgeted for $7.8 million. The PACE program was intended to provide loans
       to businesses and residents for installing energy efficiency upgrades that would have been
       paid back through annual property tax assessments rather than traditional loan payments.
       In May 2010, the Federal Housing Finance Agency and other regulators expressed
       concerns that PACE loans posed risks for existing lenders because they have a priority
       over existing mortgages. Due to these concerns over PACE, Boulder had to implement
       an alternate loan program. In August 2012, more than 2 years into its grant, Boulder
       established a financing program through a private lender.

   •   Boulder's Microloan program experienced weak demand, resulting in a low number of
       loans being closed. The Microloan program was established to provide loans up to
       $5,000 for residential building retrofits. Originally budgeted for approximately $2.3
       million, the Microloan program had only closed about $291,000 in loans as of May 2012,
       when the program was discontinued. The majority of the remaining funds had been
       transferred to rebates and the alternate loan program previously noted.
These loan program issues may affect Boulder's ability to achieve its grant objectives related to
retrofitting and leveraging of available EECBG Program funding. Boulder officials believe that
the implementation of the new loan program will help achieve their retrofit goals. According to
Boulder officials, the new loan program had received over $1.7 million in applications for energy
efficiency and renewable energy measures since it was launched in August 2012.

                                       Rebate Payments

We found about $8,000 of the $37,000 in homeowner rebates paid by Boulder that we reviewed
were either inaccurate or unsupported. In fact, 33 of the 91(36 percent) single-family

                                               3
rebates that we sampled were inaccurate and/or lacked supporting documentation. For example,
one homeowner erroneously received two duplicate rebates totaling $1,000. Additionally, 13
rebate payments had insufficient documentation including missing invoices, inadequate invoices
or missing rebate applications. Under Boulder's program, residents were eligible for multiple
rebates ranging from $100 to $500 for installation of individual energy measures, not to exceed
$1,000 per home. These inaccurate and unsupported payments occurred, in part, because
Boulder did not adequately oversee the work of the contractor hired to manage its residential
rebate program. Specifically, Boulder had sub-contracted the administration of its rebate
program to a third party, but had not verified the accuracy and documentation of rebate
payments. Because of these issues, we questioned about $8,000 in rebate payments.

In addition, we reviewed 488 multi-family rebates made to apartment and condominium
complexes, totaling approximately $240,000, and noted no inaccurate or unsupported payments.
While we have not determined the reasons that the multi-family rebates were less error prone, we
noted that the multi-family rebates appear to be more straightforward, involving for example,
one measure, such as window replacements, for an apartment complex. In contrast, single-
family units often had multiple rebates for various energy saving measures installed.

RECOMMENDATIONS

If uncorrected, the problems we identified may limit the ability of Colorado and Boulder to
achieve the goals of the EECBG Program. Oversight problems may also increase the risk of
fraud, waste, and abuse. To address the problems outlined in our report, we recommend that the
Assistant Secretary for Energy Efficiency and Renewable Energy:

   1. Ensure that Colorado performs grant closeout procedures that require all CEC activity
      sub-recipients to substantiate allowable expenditures supporting all grant funds received;

   2. Ensure that Boulder County:

          a. Provides the Department with periodic updates on the performance of the new
             financial incentive program;

          b. Periodically verifies the accuracy and documentation of rebates for a sample of
             recipients; and,

          c. Requires its contractors to implement additional controls for ensuring the accuracy
             and documentation of rebate payments to homeowners.

Additionally, we recommend that the contracting officers for the Energy Efficiency and
Conservation Block Grants resolve questioned costs totaling about $2 million for Colorado and
approximately $8,000 for Boulder.




                                               4
MANAGEMENT COMMENTS

The Department, Colorado, and Boulder concurred with the recommendations in the report and
stated they had implemented corrective actions. The Department expressed concern that the goal
to retrofit 9,000 homes and businesses cited in our report included the goals for both Boulder and
its sub-recipients, while the 4,200 progress metric reported as of September 2012 was solely for
Boulder, exclusive of its sub-recipients. Additionally, the Department's comments indicated that
as of January 2013, Boulder was on track to meet or exceed its overall retrofit goal.

Colorado officials also told us that they had reached out to all CEC agencies to summarize costs
and confirm that grant payments did not exceed expenses. Colorado indicated that it had not
identified any agency that was paid in excess of their actual costs. Further, Colorado officials
told us that when plans were not delivered in a timely fashion, they worked with the CEC to
ensure that the overall program goal to guide future regional energy work would not be adversely
affected.

In its official response to the draft audit report, Boulder stated that it took immediate action on
the erroneous rebates we identified, including obtaining reimbursements from the affected
customers. Boulder's response also stated that it had initiated corrective actions to improve the
accuracy of rebates processed and to ensure rebates were adequately supported. Subsequent to
providing its official written response, Boulder confirmed the $1,000 duplicate payment that was
included in our sample. However, Boulder indicated that it had determined that the remaining
$7,000 in costs we questioned were accurate and supported by documentation. Additionally,
Boulder suggested that we clarify the report to indicate that the grant's retrofit goal included both
Boulder and its sub-recipients. Finally, Boulder stated that it expected to achieve energy
efficiency upgrades in 9,000 homes and businesses by May 2013; although it acknowledged that
it was not on target to meet the grant's stated goal to retrofit that number of homes and
businesses by achieving a 15 percent energy savings relative to its baseline.
AUDITOR RESPONSE
The comments from the Department, Colorado, and Boulder were responsive to our
recommendations. Based on the information provided by Boulder, the progress metric in the
report as of September 30, 2012, included data from both Boulder and its sub-recipients, contrary
to the Department's response. Because the overall goal stated in Boulder's grant agreement
included Boulder and its sub-recipients, we did not believe reporting only Boulder's figures
would be an accurate representation of the goal status. However, we clarified in the report that
the metric included both Boulder and its sub-recipients. While the Department stated Boulder is
on track to meet or exceed its overall goal, the figures provided in the response did not support
that assertion. Additionally, as we noted in the report, Boulder had not met the interim retrofit
goal that it had established. Finally, Boulder had not provided sufficient documentation
supporting the accuracy of the remaining $7,000 in rebates that we questioned.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff

                                                  5
                                                                                   Attachment 1

                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE
The objective of the audits was to determine whether the State of Colorado (Colorado) and
County of Boulder, Colorado (Boulder) had adequate safeguards in place to ensure Energy
Efficiency and Conservation Block Grant (EECBG) Program funds under the American
Recovery and Reinvestment Act of 2009 (Recovery Act) were managed efficiently and
effectively.

SCOPE
The Colorado audit was performed between February 2011 and February 2013, at the State of
Colorado Governor's Energy Office in Denver, Colorado, and at selected sub-recipient locations.
The Boulder audit was performed between June 2011 and February 2013, at the Boulder County
offices in Boulder, Colorado. The audit scopes were limited to Colorado and Boulder grants.

METHODOLOGY

To accomplish the audit objective, we:

    •   Reviewed prior audits of the EECBG Program conducted by the Department of Energy's
        Office of Inspector General and the Government Accountability Office;

    •   Reviewed applicable laws, regulations and guidance pertaining to the EECBG Program
        under the Recovery Act, as well as laws, regulations and guidance applicable to the
        Colorado and Boulder grants;

    •   Interviewed Colorado and Boulder officials to discuss current and ongoing efforts to
        implement the requirements of the EECBG Program;

    •   Considered Colorado and Boulder's internal controls over grants;

    •   Analyzed Colorado and Boulder's implementation documentation and monitoring
        reports;

    •   Collected and examined documentation related to Colorado and Boulder grant activities;

    •   Conducted site visits to selected Colorado sub-recipients, including Fremont County and
        the cities of Durango, Montrose, and Florence to test the existence of completed EECBG
        projects and to assess the status and efforts of 2 of the 19 Community Energy
        Coordinators sub-recipients; and,

    •   Selected a judgmental sample of Boulder's residential rebates to ensure the payments
        were appropriate and sufficiently documented. Of the 573 rebate payments totaling
        $623,670, as of September 30, 2011, we selected a sample of 32 payments totaling


                                               6
                                                                       Attachment 1 (continued)

        $279,618 covering 91 single-family and 488 multi-family rebates. Attributes considered
        in selecting our sample included same or similar payees or addresses and high payment
        amounts. Because the sample was judgmental, we could not project to the population.

We conducted these performance audits in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audits to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audits included tests of
controls, and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audits. We considered the establishment of
Recovery Act performance measures that included certain aspects of compliance with the GPRA
Modernization Act of 2010, as necessary to accomplish the objective. We conducted a limited
reliability assessment of computer-processed data and we deemed the data to be sufficiently
reliable.

We held exit conferences with both Colorado and Boulder officials on March 11, 2013. The
Department of Energy waived the exit conference.




                                               7
                                                                                    Attachment 2

                                      PRIOR REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General
has initiated a series of audits designed to evaluate the Department of Energy's Energy Efficiency
and Conservation Block Grant Program. Our series of audit reports include the following:

    • Audit Report on The Department's Implementation of Financial Incentive Programs
      under the Energy Efficiency and Conservation Block Grant Program (OAS-RA-L-13-02,
      December 2012).

    • Examination Report on The Department of Energy's American Recovery and
      Reinvestment Act Energy Efficiency and Conservation Block Grant Program – Efficiency
      Maine Trust (OAS-RA-13-04, November 2012).

    • Examination Report on County of Los Angeles – Energy Efficiency and Conservation
      Block Grant Program Funds Provided by the American Recovery and Reinvestment Act
      of 2009 (OAS-RA-13-02, October 2012).

    • Examination Report on California Energy Commission – Energy Efficiency and
      Conservation Block Grant Program Funds Provided by the American Recovery and
      Reinvestment Act of 2009 (OAS-RA-13-01, October 2012).

    • Audit Report on The Department of Energy's Energy Efficiency and Conservation Block
      Grant Program Funded under the American Recovery and Reinvestment Act for the City
      of Philadelphia (OAS-RA-12-09, April 2012).

    • Special Report on Lessons Learned/Best Practices during the Department of Energy's
      Implementation of the American Recovery and Reinvestment Act of 2009
      (OAS-RA-12-03, January 2012).

    • Audit Report on The State of Nevada's Implementation of the Energy Efficiency and
      Conservation Block Grant Program (OAS-RA-12-02, November 2011).

    • Letter Report on The Department of Energy's Energy Efficiency and Conservation Block
      Grant Program Funded under the American Recovery and Reinvestment Act for the State
      of Pennsylvania (OAS-RA-L-11-11, September 2011).

    • Management Alert on The Status of Energy Efficiency and Conservation Block Grant
      Recipients' Obligations (OAS-RA-11-16, September 2011).

    • Audit Report on The Department of Energy's Implementation of the Energy Efficiency
      and Conservation Block Grant Program under the Recovery and Reinvestment Act: A
      Status Report (OAS-RA-10-16, August 2010).




                                                8
                      Attachment 3


DEPARTMENT COMMENTS




         9
     Attachment 3 (continued)




10
     Attachment 3 (continued)




11
                              Attachment 4

STATE OF COLORADO, COMMENTS




            12
                                        Attachment 5

COUNTY OF BOULDER, COLORADO, COMMENTS




                 13
     Attachment 5 (continued)




14
                                                                 IG Report No. OAS-RA-13-16



                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
